2311 Dougl: * 3-Mail é
3 uglas Street CAL il Briefs E-Mail Address

Omaha, Nebraska 68102-1214 - contact@cocklelegalbriefs.com
Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850

No.

KD and JD, Parents, Natural Guardians and
Next Friends of LK,
Petitioners,
vs.
School District No. 001, a/k/a Omaha Public Schools,
Daniel Bartels, Brian Robeson,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 4611 words, excluding the parts that are exempted by
Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 14th day of September, 2021.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

My Comm. Exp. September 5, 2023

 

Boren | Kone 0 thao Ondiawtt. Chel

Affiant 41423

 

Notary Public
